No.

IN THE

Supreme Court of the United States
_______________
CHRISTOPHER R. GISH,
v.

Petitioner,

RANDALL HEPP, WARDEN,
_______________

Respondent.

On Petition for a Writ of Certiorari
to the United States Court of Appeals
for the Seventh Circuit

_______________

PETITION FOR A WRIT OF CERTIORARI

_______________

SHELLEY M. FITE
ASSOCIATE FEDERAL
DEFENDER
FEDERAL DEFENDER SERVICES
OF WISCONSIN, INC.
22 East Mifflin St., Suite 1000
Madison, WI 53703
(608) 260-9900
shelley_fite@fd.org

QUESTION PRESENTED
In Lee v. United States, __ U.S. __, 137 S. Ct. 1958,
1965 (2017), this Court held that in assessing whether a
defense attorney’s deficient advice that led a defendant
to plead guilty was prejudicial, courts focus on how the
particular defendant made the plea decision, not necessarily the likelihood of success at trial. This case involves the interaction of Lee with an earlier case: Hill v.
Lockhart, 474 U.S. 52 (1985).
The specific question presented is whether Lee represents a narrow exception to Hill’s more general rule
that is focused on the likelihood of success at trial,
which exception is applicable only where a defendant’s
decision on whether to go to trial was focused on a collateral matter like immigration?

PARTIES TO THE PROCEEDING AND RULE
29.6 STATEMENT
Petitioner is Christopher Gish. Respondent is the
Randall Hepp. No party is a corporation.

-2-

TABLE OF CONTENTS
Page
Questions Presented
Parties to the Proceeding and
Rule 29.6 Statement .................................................... 2
Table of Contents ........................................................ 3
Table of Authorities..................................................... 5
Petition for a Writ of Certiorari .................................. 7
Opinions Below ............................................................ 7
Jurisdiction .................................................................. 7
Constitutional and Statutory Provisions Involved .... 7
Introduction ................................................................. 8
Statement of the Case ............................................... 10
Reasons for Granting the Petition ............................ 17
I.

This court should grant review to clarify the interaction of two of this Court’s cases: Hill v.
Lockhart and Lee v. United States ................. 17
A.

Hill v. Lockhart .................................... 17

B.

Lee v. United States ............................. 19

C.

Clarification of these cases is needed.. 21

-3-

II.

This Court should grant review to correct the
Seventh Circuit’s material misstatement of the
standard announced in Hill ........................... 23

Conclusion ................................................................. 24
Appendix

-4-

TABLE OF AUTHORITIES
Page(s)
Cases
Anders v. California,
386 U.S. 738 (1967) ..................................................... 10
Evans v. Meyer,
742 F.2d 371 (7th Cir. 1984) .............................. 18, 24
Hill v. Lockhart,
474 U.S. 52 (1985) ............................................ Passim
Lafler v. Cooper,
566 U.S. 156 (2012) .................................................. 22
Lee v. United States,
137 S. Ct. 1958 (2017) ...................................... Passim
State v. Allen,
786 N.W.2d 124 (Wis. 2010) ........................................ 11
State v. Gardner,
601 N.W.2d 670 (Wis. Ct. App. 1999) ......................... 10
Strickland v. Washington,
466 U.S. 668 (1984) .................................. 8, 11, 17, 19

-5-

Constitutional Provisions and Statutes
U.S. Const. amend VI ........................................... 9, 19
28 U.S.C. § 1254(1) ....................................................... 7
28 U.S.C. § 2254 .......................................................... 11
Wis. Stat. § 809.32(1)(g) .............................................. 11

-6-

PETITION FOR A WRIT OF CERTIORARI
Petitioner Christopher Gish respectfully petitions
for a writ of certiorari to review the decision of the
U.S. Court of Appeals for the Seventh Circuit
OPINIONS BELOW
The opinion of the United States Court of Appeals
for the Seventh Circuit (App., infra, 1a-18a) is reported at 955 F.3d 597. The opinion of the district
court denying Petitioner’s petition for a writ of habeas
corpus (App., infra, 19a-37a) is reported at 291 F.
Supp. 3d 864.
JURISDICTION
The Seventh Circuit issued its decision on April
3, 2020. This Court’s jurisdiction is invoked under 28
U.S.C. § 1254(1).
CONSTITUTIONAL AND STATUTORY
PROVISIONS INVOLVED
The Constitution’s Sixth Amendment provides in
relevant part: “In all criminal prosecutions, the accused shall enjoy the right to . . . have the Assistance
of Counsel for his defence.”

-7-

INTRODUCTION
This habeas corpus case presents an opportunity for
the Court to clarify Strickland’s1 prejudice standard in
the context of a claim that defense counsel’s deficient investigation caused the defendant to plead guilty, waiving his right to trial.
In Hill v. Lockhart, 474 U.S. 52, 59 (1985), this
Court held that when assessing prejudice in this context,
the salient question is whether “there is a reasonable
probability that, but for counsel's errors, [the defendant]
would not have pleaded guilty and would have insisted
on going to trial.” The Court went on to say that in most
cases, the resolution of the prejudice inquiry will depend
on whether but for the attorney’s error, the defendant
likely would have succeeded at trial.” Id. This makes
sense: the likelihood of success at trial is how a defendant, with the advice of counsel, generally decides
whether to go to trial. Id.
In Lee v. United States, 137 S. Ct. 1958, 1965 (2017),
the Court applied Hill to a situation in which the defendant was primarily concerned about how a conviction
would affect his immigration status; when his attorney
erroneously advised him that conviction would not render him deportable, he pled guilty. The defendant presented evidence that even accepting that he did not have
a viable defense to the charge, he was so concerned about
his immigration status that if he’d known that a conviction would render him deportable, he would have rolled
the dice with trial. In holding that the defendant had established prejudice, the Court emphasized that the inquiry is ultimately about the defendant’s decision-making. Id. at 1966–69. The likelihood of success at trial is
1 Strickland v. Washington, 466 U.S. 668 (1984).

-8-

often the most critical factor in the analysis, but only because it is often the most critical factor in defendants’
decision-making, not for its own sake. Id. at 1966–67.
Here, when Petitioner pled guilty to first-degree
reckless homicide, all evidence supports that defense
counsel had advised him that there was no defense to
the charge. At an evidentiary hearing in the habeas
court, Petitioner presented evidence that there was a viable affirmative defense. The defense would not be a
slam dunk; Petitioner almost certainly would be able to
present it to a jury as a matter of state law, but it would
be something of a long shot. But he testified, and contemporaneous evidence supported, that he pled guilty
because he thought he had no chance of winning at trial.
If he had known that he had any chance of winning, he
would have gone to trial.
Petitioner argued that although Hill suggests that
a defendant in his position must show that the un-investigated affirmative defense “likely would have succeeded
at trial,” Lee clarified that the standard does not “look[]
to the probability of a conviction for its own sake,” but
because that is how most defendants made the decision.
137 S. Ct. at 1966. Thus, where the evidence shows that
a defendant would have gone to trial with any viable defense, Hill, as clarified by Lee, establishes that he’s met
the prejudice standard.
The Seventh Circuit rejected Petitioner’s interpretation of Lee as clarifying Hill, instead treating it as an
exception to Hill, applicable only where the defendant
made the plea decision based on something completely
unrelated to success at trial (like immigration).
This case presents the Court with an opportunity to
clarify the interaction of Hill and Lee, which govern an
analysis impacting a very large number of cases.

-9-

STATEMENT OF THE CASE
Petitioner was charged in Wisconsin state court
with first-degree intentional homicide for killing his
longtime girlfriend. His trial counsel later testified
that the case didn’t make sense: there was no history
of violence, no evidence that he and his girlfriend had
been fighting, and the murder was horrific—a stabbing. While it was clear that Petitioner committed the
crime, he had made confusing statements about why.
He told counsel that days before the homicide, he had
started new medications—Lamictal and Xanax. He
wondered if that had something to do with the murder
(and why he had been found by the police wandering
incoherently on railroad tracks, unaware of where he
was, leading to an involuntary hospitalization). Counsel looked into Lamictal and found nothing useful. But
counsel did not look into Xanax. Soon before the
scheduled trial date, counsel advised Petitioner that
there was no viable defense. Based on this advice, Petitioner pled guilty to a lesser charge of first-degree
reckless homicide. The court later sentenced him to 60
years’ imprisonment.
Petitioner appealed, and his appointed attorney
filed a “no-merit report” with the state court of appeals, according to a state procedure based on Anders
v. California, 386 U.S. 738 (1967). In preparing to respond to this report, Petitioner discovered that Xanax
can have rare, paradoxical side effects—hallucination,
aggression, confusion. He also learned that Wisconsin’s affirmative defense of “involuntary intoxication”
applies to a defendant who has taken medication as
prescribed and it renders him incapable of distinguishing between right and wrong. See State v. Gardner, 601 N.W.2d 670, 673–74 (Wis. Ct. App. 1999).

-10-

Petitioner filed a response to the no-merit report
explaining that trial counsel was ineffective for failing
to investigate an involuntary-intoxication defense
based on his prescription Xanax use.2 Petitioner alleged that if counsel had told him that about the defense, he would not have pled guilty; he would have
gone to trial. He appended to his no-merit response
prescription information, police reports, and other
materials relevant to his claim.
The Wisconsin Court of Appeals accepted the nomerit report and dismissed the appeal upon finding
that Petitioner’s attorney had “nothing to investigate,” without remanding for fact-finding. The Wisconsin Supreme Court denied review.
His direct appeal concluded, Petitioner filed a
timely habeas corpus petition (pro se) in the federal
district court under 28 U.S.C. § 2254. In an interlocutory order, the district court ruled that the Wisconsin
Court of Appeals’ decision rejecting Petitioner’s ineffective-assistance claim had unreasonably applied
clearly established federal law (Strickland and its
progeny), see § 2254(d)(1) (AEDPA standard), by rejecting his ineffective-assistance claim without any
fact-finding process for resolving undeveloped and/or
disputed facts, although Petitioner’s allegations, if
true, would entitle him to relief. App. 47a–52a. The
district court’s order also provided that it would hold
an evidentiary hearing in order to resolve the factual
2 In Wisconsin, defendants can raise ineffective-assistance-

of-counsel claims on direct appeal, so a viable ineffectiveassistance claim can defeat an appointed attorney’s nomerit report. Wis. Stat. § 809.32(1)(g); see also State v. Allen, 786 N.W.2d 124, 139 & n.9 (Wis. 2010).

-11-

questions that the state courts had not resolved, and
it appointed counsel. App. 52a–54a.
At the evidentiary hearing in the district court,
Petitioner presented three witnesses: a pharmacologist, defense counsel, and himself. The State presented testimony by a toxicologist and a retired detective who had worked on the case.
The pharmacologist testified that Xanax (generic
name: alprazolam) is used to treat anxiety or insomnia, or for sedation. It can, however, have a rare “paradoxical reaction” that can involve “hostility, or aggression, or suicide, or even homicide,” which can present with a therapeutic dose. He further testified that
based on his interview with Petitioner, and police and
hospital reports from soon after the homicide, it appeared that Petitioner was having a psychotic break
at the time of the homicide; that the improvement of
his mental state over the course of his hospitalization
indicated that the psychotic break was drug-induced;
and that the recently prescribed Xanax would appear
to be the cause of the drug-induced psychotic break.
He testified that Petitioner’s reaction to Xanax would
have deprived him of the ability to conform to the requirements of the law.
Petitioner’s trial counsel testified that he investigated the possibility that Petitioner had a psychological disorder or that his use of Lamictal (a medication
that he wasn’t familiar with) might have contributed
to the murder. However, he did not investigate Xanax;
he could not explain why. Based on what he’d learned
over the course of the habeas proceedings, he wishes
he had—it “seems like something I should have done.”
And he should have considered involuntary intoxication from Xanax as a defense. Defense counsel also

-12-

testified that the plea offer that Petitioner ultimately
accepted, with a 60-year maximum sentence, was not
particularly good. But since counsel had not investigated involuntary intoxication from Xanax as a potential defense, just before Petitioner made the decision
to accept the State’s plea offer, counsel (as shown by
contemporaneous notes) asked him: “What defense do
we have—really?”
Petitioner testified that he started taking Xanax
just a couple of days before the homicide, and took it
according to his new prescription on the day of the
homicide.3 He’d always thought that the medication
had something to do with the homicide because it
didn’t make sense that he’d killed his girlfriend. But
he did not know at the time he pled guilty that it
might be a legal defense. Trial counsel had never
talked with him about the possibility of an involuntary-intoxication defense. Petitioner testified that if
he had known about the defense, he would have gone
to trial rather than entering a plea. He said: “If I don’t
have a defense, there’s no sense in me even going.” But
if he had even just a “one-percent chance, that’s a
chance. If I have a zero-percent chance, I have no
chance. If you tell me I got one, I don’t—like I said, I’m
going to take my chances.”
The State’s toxicologist testified that Gish tested
negative for alcohol at the hospital where he was
taken the night of the homicide. But he was not tested
for any other drugs, so it was impossible to know
whether he took Xanax the day of the homicide. She

3 Documentation confirming this new prescription where

admitted into the record without objection.

-13-

granted that there is a rare paradoxical reaction to
Xanax that causes aggression, and that Gish’s behavior after the homicide was consistent with Xanax intoxication (as well as with other kinds of intoxication).
However, she also said that there was no way to know
after the fact whether Xanax had caused his actions.
The retired detective testified about statements
that Petitioner made after the homicide—both at the
hospital and soon after he was released to police—in
which he’d said that he had not taken Xanax that day
because he’d sold it. (When Petitioner testified, he
acknowledged saying this—but he said that it was not
true and he did not know why he’d said it.) The detective also testified that the report produced after the
search of Petitioner’s home did not reveal any Xanax
prescription bottle. But then, they had not been looking for one.
Ultimately, the district court denied the petition.
The court “assume[d] that counsel performed deficiently by failing to inform Gish of a potential defense
of involuntary intoxication.” But it ruled that Petitioner could not show that the deficient performance
was prejudicial because “[h]ad trial counsel advised
Gish about a possible involuntary intoxication defense, that advice would have to include an assessment of the prospects of success, which are essentially
nil.” App. 20a.
Petitioner appealed, and the Seventh Circuit affirmed. The Seventh Circuit agreed with the district
court that the Wisconsin Court of Appeals had unreasonably applied clearly established federal law in dismissing Petitioner’s appeal without remanding for
fact-finding. App. 9a–12a. It also agreed with the dis-

-14-

trict court on the underlying merits of the claim: it assumed that defense counsel performed deficiently,
App. 12a, but found that there was “no likelihood” that
the involuntary-intoxication defense “would have persuaded a jury that Xanax rendered [Petitioner] unable
to appreciate the difference between right and wrong”
at the time of the homicide. App. 16a.
Petitioner had argued that Lee had clarified Hill’s
“likely would have succeeded at trial” line, about how
most defendants’ decision whether to go to trial turn
on whether they likely would have succeeded at trial.
Lee explains that in the end, the analysis focuses on
the particular defendant’s decision-making process.
And since all evidence in this case indicated that Petitioner was very interested in trial—and that he
would have gone to trial if he’d any defense—it was
not appropriate for the courts to imagine a hypothetical jury trial to gauge the likelihood of a jury ultimately accepting the defense. Petitioner had shown
that there was an available defense under state law
and that he would have gone to trial with any available defense; thus, he succeeded in showing that there
was a reasonable probability that, but for counsel’s errors, he would have gone to trial.
The Seventh Circuit rejected Petitioner’s reading
of Hill and Lee. Rather than treating Lee as clarifying
Hill’s prejudice standard, it treated Lee as an exception to the rule, applicable only when the defendant
shows that the decision to plead guilty was focused on
a collateral matter wholly unrelated to success at
trial, like immigration consequences. See App. 15a.
The Seventh Circuit reasoned thusly: “Properly informed, Lee would have found nothing attractive

-15-

about a plea offer that reduced his prison time (a relatively minor concern for him) but guaranteed his deportation—the outcome he most wanted to avoid.” Id.
The court did not acknowledge the fact (pointed out by
Petitioner in briefing) that under the plea agreement
that Petitioner accepted, he was guaranteed a sentence that was effectively a life sentence, or nearly so;
even his own attorney argued for a 25-to-30-year sentence under the agreement, which would keep him in
prison into his seventies. (In Wisconsin, there is no
possibility of good time or parole.)
Under the Seventh Circuit’s reading of Hill and
Lee, because Petitioner was focused on the availability
of a defense, which is related to success at trial, rather
than a collateral matter, Lee was essentially irrelevant. Petitioner could meet his prejudice burden only
if he could show that there was “a reasonable probability that, had his counsel investigated the defense,
he would have rejected the plea offer and proceeded to
trial with a likelihood of succeeding on the defense.”
App. 13a (emphasis added).

-16-

REASONS FOR GRANTING THE PETITION
I.

This Court should grant review to clarify
the interaction of two of this Court’s cases:
Hill v. Lockhart and Lee v. United States.
A.

Hill v. Lockhart

Just one year after the Supreme Court issued its
seminal decision in Strickland v. Washington, 466
U.S. 668 (1984), the Court clarified that Strickland’s
two-part standard applies in the plea context. Hill,
474 U.S. at 57–58. Thus, where a defendant alleges
that he was denied the effective assistance of counsel
in a case in which he pled guilty, he must show both
deficient performance and prejudice. Id.
The Court explained that in the guilty plea context, the first prong is essentially the same as in a trial
case: did the attorney act reasonably? Id. at 58–59.
The prejudice prong, though, “focuses on whether
counsel’s constitutionally ineffective performance affected the outcome of the plea process. In other words,
in order to satisfy the ‘prejudice’ requirement, the defendant must show that there is a reasonable probability that, but for counsel’s errors, he would not have
pleaded guilty and would have insisted on going to
trial.” Id. at 59.
The Court went on to explain that when applying
this standard, in “many guilty plea cases,” the inquiry
will focus on the likelihood of success at trial. For example, in cases involving counsel’s failure to investigate or discover potentially exculpatory evidence, the
assessment “will depend on the likelihood that discovery of the evidence would have led counsel to change

-17-

his recommendation as to the plea.” Id. And “[t]his assessment, in turn, will depend in large part on a prediction whether the evidence likely would have
changed the outcome of a trial.” Id.
To give another example, the Court said that in a
case involving counsel’s failure to advise the defendant of an affirmative defense, “the resolution of the
‘prejudice’ inquiry will depend largely on whether the
affirmative defense likely would have succeeded at
trial.” Id. As one concrete example of just this sort of
inquiry, the Court cited Evans v. Meyer, 742 F.2d 371,
375 (7th Cir. 1984), a case in which a defendant
claimed that he would not have pled guilty if he’d
known that he could raise a defense of voluntary intoxication, although “[i]ntoxication as such is not a defense to a criminal charge.” Evans, 742 F.2d at 373
(emphasis added). In Evans, the Seventh Circuit held
that “no lawyer in his right mind would have advised
Evans to go to trial with a defense of intoxication”—
that is, a non-defense—and face 120 years in prison,
versus plead guilty in a deal that would result in 9½
years’ imprisonment. Id. at 373–74.
In Hill, the defendant was complaining about his
attorney’s advice regarding a collateral matter—parole eligibility. 474 U.S. at 60. The Court did not discuss the claim in any detail because it was clear that
it could not meet the standard: the defendant had not
even alleged that if counsel had given him correct information about parole eligibility, he would not have
pled guilty. Id. And there was nothing in the record
suggesting that parole eligibility was central to his decision on whether to enter a plea or go to trial. Id.

-18-

B.

Lee v. United States

More than 30 years after Hill, the Court applied
Strickland to another guilty-plea case, in Lee v.
United States, 137 S. Ct. 1958 (2017). Nowhere in Lee
did the Court suggest that it was modifying Hill’s prejudice standard or announcing an exception to the Hill
standard. To the contrary, the Court quoted Hill’s description of the governing standard: “the defendant
can show prejudice by demonstrating a ‘reasonable
probability that, but for counsel’s errors, he would not
have pleaded guilty and would have insisted on going
to trial.” Lee, 137 S. Ct. at 1965 (quoting Hill, 474 U.S.
at 59).
As in Hill, the defendant’s claim in Lee was focused on his attorney’s advice about a collateral matter—the immigration consequences of conviction.
Counsel advised the defendant that conviction would
not render him deportable; but, in fact, it would (and
did). 137 S. Ct. at 1963. The evidence showed that in
deciding whether to plead guilty or go to trial, the immigration consequence of conviction was paramount;
it was more important to the defendant even than
prison time. Id. Thus, as a practical matter, at least,
it would seem that he’d shown that but for counsel’s
error, he would have insisted on going to trial. There
was every reason to think that if he had accurate information about immigration, he would have gone to
trial—any possibility of acquittal, however remote,
was preferable to pleading guilty and sealing his immigration fate. See id.
The dispute in Lee centered on the fact that the
defendant had no defense to the charge. So really, if
he had rejected the plea based on counsel’s accurate

-19-

advice and gone to trial, he almost certainly would
have been convicted anyway, ending up in precisely
the same immigration position, just with more prison
time preceding deportation. Id. at 1964. In finding
that the lack of defense did not defeat his claim, the
Court emphasized that it was considering not whether
the defendant was prejudiced by losing the opportunity to succeed at trial, but whether he “was prejudiced by the denial of the entire judicial proceeding to
which he had a right”—that is, the trial itself. Id. at
1965 (internal quotation marks and ellipses omitted).
The government and dissenting justices in Lee argued that the defendant should have to show that he
would have been better off in some way if he’d gone to
trial. Id. But the Court said that a defendant needs to
show that he would have been better off at trial only
if “the defendant’s decision about going to trial turns
on his prospects of success and those are affected by
the attorney’s error.” Id. The Court acknowledged
that many—even most—cases would fall into this category; usually, defendants decide whether to plead
guilty by comparing the benefits of a plea with the
risks associated with trial. Id. But the fact the prejudice inquiry will often revolve around the likelihood of
success at trial does not mean that the prejudice test
“looks to the probability of a conviction for its own
sake.” Id. at 1966. Again, it is only because most “defendants obviously weigh their prospects at trial in deciding whether to accept a plea.” Id.

-20-

C.

Clarification of these cases is needed.

The Seventh Circuit’s opinion in this case shows
that this Court needs to clarify the interaction of Hill
and Lee. It would certainly appear that this Court intended Lee to explain and clarify Hill’s prejudice
standard, rather than, as the Seventh Circuit indicated, to create an exception to Hill applicable where
defense counsel’s erroneous advice dealt with a collateral matter that was extrinsic to the prospect of success at trial. See App. 15a.
Indeed, the Court in Lee offered an example of another sort of case where a defendant with dire chances
at trial might nevertheless choose trial, which was essentially all about the prospect of success:
For example, a defendant with no realistic defense to a charge carrying a 20–
year sentence may nevertheless choose
trial, if the prosecution’s plea offer is 18
years.
137 S. Ct. at 1966–67. This example looks a lot like
the present case, except that Petitioner has established that he does have a realistic defense, just not
one that’s particularly likely to win over jurors. Petitioner faced the choice of going to trial, which carried
the risk of a life sentence, or taking a plea deal under
which even his own sentence recommendation would
be “in effect, a life sentence” (to use his attorney’s
words). Believing he had absolutely no defense, he figured that he might as well plead guilty. But with an
affirmative defense that could have gone to the jury,
he would at least have had some possibility of success,
so he would have gone to trial.

-21-

Apparently, Seventh Circuit judges would not
have made the same choice. But under the standard
announced in Hill and clarified in Lee, the court was
required to consider the matter from Petitioner’s perspective, not its own.
More importantly for this petition seeking Supreme Court review, is that this Court needs to clarify
that there is only one standard—not two, with one applicable to investigation and advice about trial, and
the other applicable to advice about collateral consequences. That standard is as follows: “the defendant
can show prejudice by demonstrating a ‘reasonable
probability that, but for counsel’s errors, he would not
have pleaded guilty and would have insisted on going
to trial.” Lee, 137 S. Ct. at 1965 (quoting Hill, 474 U.S.
at 59). This is a “case-by-case examination of the totality of the circumstances,” which “focuses on” the
particular defendant’s decision-making process. Id. at
1961 (internal quotation marks omitted).
This is a critically important issue, which impacts
numerous cases. The reality of our contemporary
criminal justice system is that “97 percent of federal
convictions and 94 percent of state convictions are the
result of guilty pleas.” Lafler v. Cooper, 566 U.S. 156,
170 (2012). This may not be the system that the country’s founders envisioned, but it is compatible with the
Constitution. However, it is only compatible with the
Constitution so long as courts carefully guard against
guilty pleas that were based on erroneous information
or advice, regardless of whether a defendant might
have won or lost at a hypothetical trial. As the Court
said in Lee, the problem being corrected in a case like
this one is the denial of an “entire judicial proceeding”
to which defendants have the right. 137 S. Ct. at 1965.

-22-

II. The Court should grant review to correct
the Seventh Circuit’s material misstatement of the standard announced in Hill.
The second reason for granting this petition is
closely related to the first. But the distinction is that
even if the Seventh Circuit is correct that Lee represents an exception to Hill, such that in this case Hill
but not Lee governs, the Seventh Circuit opinion
should be reversed for misstating the Hill standard.
As discussed, where a defendant raises an ineffective-assistance claim in a guilty-plea case, “the defendant can show prejudice by demonstrating a ‘reasonable probability that, but for counsel’s errors, he
would not have pleaded guilty and would have insisted on going to trial.” Hill, 474 U.S. at 59. That is
the standard—full stop.
The Seventh Circuit in this case said that the Hill
standard required Petitioner to “demonstrate that
there existed a reasonable probability that, had his
counsel investigated the defense, he would have rejected the plea offer and proceeded to trial with a likelihood of succeeding on the defense.” App. 13a (emphasis added). This placed an additional burden on Petitioner, beyond the standard announced in Hill. Thus,
it is inconsistent with Hill.
In misstating the standard, the Seventh Circuit
focused on Hill’s statement that where the defendant
argues that counsel was ineffective for failing to advise him of an affirmative defense, “the resolution of
the ‘prejudice’ inquiry will depend largely on whether
the affirmative defense likely would have succeeded
at trial.” Hill, 474 U.S. at 59. But this statement was
made in the context of describing “example[s]” of how

-23-

individual defendants might prove prejudice under
the standard previously articulated. Id. at 59. It is
worth noting here that in making this statement, the
Hill court cited to a case in which a defendant claimed
that he would have gone to trial if he’d known about
an affirmative defense that, as a matter of state law,
was not a defense at all—a situation that is remarkably different than the present case. See Evans, 742
F.2d at 373. But the point is that Hill’s discussion of
how the standard might apply to certain hypothetical
situations did not alter the standard itself. By claiming otherwise, the Seventh Circuit clearly misstated
the Hill standard and its decision should be reversed.
CONCLUSION
The petition for a writ of certiorari should be
granted.
Respectfully submitted,

SHELLEY M. FITE
ASSOCIATE FEDERAL
DEFENDER
Counsel of Record/Counsel for
Petitioner
FEDERAL DEFENDER SERVICES
OF WISCONSIN, INC.
22 East Mifflin St., Suite 1000
Madison, WI 53703
(608) 260-9900
shelley_fite@fd.org

August 31, 2020

-24-

